Supreme Court, U.S.
FILED

JUL 1 5 2D21

No:

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
CHRISTINA PAYLAN, M.D.,
Petitioner
v.

COMANECI DEVAGE et al.
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

CHRISTINA PAYLAN, M.D.
P.O. BOX 66442
St. Pete Beach, Florida 33736
Tel: (813) 919-6299
Email: drpaylan@bodytuck.com

QUESTION PRESENTED
Whether the standard for judicial recusal requires a second look with
establishment of a strict uniform criteria whereby the largely relied upon
discretionary case-by-case analysis standard is abandoned, given that the average
American is increasingly concerned with lack of judicial accountability engrained into
the American legal system?

ii

TABLE OF CONTENTS

QUESTION PRESENTED..................................

11

TABLE OF CITATIONS......................................
PETITION FOR A WRIT OF CERTIORARI.....
DECISION BELOW.............................................

IV

JURISDICTION...................................................
RELEVANT CONSTITUTIONAL PROVISION

1
1
1
1

INTRODUCTION.................................................
STATEMENT OF THE CASE............................

2

REASONS FOR GRANTING THE PETITIONCONCLUSION.....................................................

7

iii

4

10

TABLE OF CITATIONS
Case

Page

Erickson v. Pardus,
551 U.S. 89, 127 S. Ct. 2197, 167 L. Ed. 2d 1081 (2007)

9

Williams v. Pennsylvania,
136 S. Ct. 1899, 195 L. Ed. 2d 132 (2016)

1

Statutes
28 U.S.C. § 455 (a)

3

42 U.S.C §1983

3

iv

PETITION FOR A WRIT OF CERTIORARI
Petitioner Christina Paylan, M.D. respectfully requests the issuance of a writ
of certiorari to review the judgment of the United States Court of Appeals for the
Eleventh Circuit in this case.
DECISION BELOW
The decision of the United States Court of Appeals for the Eleventh Circuit is
published at 847 Fed.Appx. 595 2021 WL 613666 as Paylan v. Dirks, which is the
consolidated case with the instant case.
JURISDICTION
The Eleventh Circuit entered judgment on February 17, 2021. Automatic 150
day extension pursuant to COVID pandemic places the date of filing to July 17, 2021.
This Court’s jurisdiction is invoked under 28 U.S.C. §1254
RELEVANT CONSTITUTIONAL PROVISION

The Fourteenth Amendment to the United States Constitution guarantees an
absence of actual bias on the part of a judge. Williams v. Pennsylvania, 136 S. Ct.
1899, 195 L. Ed. 2d 132 (2016). A district court judge whose husband was the
supervising police officer involved in the criminal investigation of the party before
judge, has actual bias, irrespective of whether the judge was later divorced from the
police officer husband and irrespective of whether the police officer retired from the
arresting agency by the time the civil rights suit was filed before the district court
judge.

l

INTRODUCTION
This petition addresses the constitutional infringement that the wide latitude
the current criteria for judicial recusal imposes.
In today’s environment where accountability in the judicial system is
increasingly in demand by the public, the standard for recusal of a district court
judge is in need for a second look.
Carrying her husband’s last name and having two underage children with him
apparently did not qualify as criteria for recusal for a Tampa, Florida district court
judge where her husband was the supervising police officer in Petitioner’s criminal
investigation that was the basis of Petitioner’s civil rights suit after becoming the
prevailing party in said criminal investigation. If a district court judge can deny
recusal in a case where her husband was the supervising police officer criminally
investigating one of the parties in the case, there is dire need for systemic overhaul
in standards relating to judicial recusals. President Obama appointed Judge
Honeywell did not see anything wrong with this whole scenario, going on further to
grant 12(b) motions for all law enforcement Respondents where she departed from
the norm and relied on facts outside the four corners of the operative complaint in
order to rule in favor of all those relating to her husband’s employment.
From all accounts, Judge Charlene Honeywell was married to Lieutenant
Gerald Honeywell in 2010 when a criminal investigation was initiated against
Petitioner by Tampa Police Department. An Assignment Schedule squarely placed
Lieutenant Honeywell as the supervising police officer assigned to Petitioner’s
2

criminal investigation. In 2011, under Lieutenant Honeywell’s team, Petitioner was
falsely arrested not just once, but twice. After three long years, in 2014, Petitioner
became the prevailing party in this criminal investigation. Subsequently, in 2015,
Petitioner filed suit in Middle District of Florida alleging false arrest and malicious
prosecution pursuant to 42 U.S.C §1983 and other state law violations. The lawsuit
landed on Judge Charlene Honeywell’s desk. Having heard that Judge Honeywell
may have a family member affiliated with the local arresting agency, Tampa Police
Department, Petitioner moved to disqualify Judge Honeywell pursuant to 28 U.S.C.
§ 455 (a) . Judge Honeywell denied the recusal motion by reasoning that she did not
“currently have any family members” employed by Tampa Police Department. Judge
Honeywell provided no information as to when her divorce from Lieutenant
Honeywell was and no information as to her husband’s involvement in Petitioner’s
criminal investigation as the supervising police officer. Two magistrate judges felt
differently when both cited to family members being employed by either the arresting
agency or the prosecuting agency as their grounds for sua sponte recusal. But not
Judge Honeywell.
What followed was three years of

questionable remarks and outright

obstruction for Petitioner to conduct discovery at the direction of Judge Honeywell.
The first time when Petitioner appeared before Judge Honeywell, before Petitioner
could even open her mouth to say anything, Judge Honeywell busted out saying that
doctors do not get special treatment in her courtroom. This remark was a red flag and
a result of Judge Honeywell's actual bias towards Petitioner. In the following three
3

years, discovery stays were issued and these were also red flags because the stays
were a design to ensure that Petitioner did not get close to taking the deposition of
her husband, Gerald Honeywell. Ruling on the 12(b) motions in favor of law
enforcement vis-a-vis a substantial departure from the standard for granting 12(b)
motions was yet another red flag. Judge Honeywell relied on an ongoing criminal case
that was outside the four corners of Petitioner’s operative complaint in granting
Respondents relating to her husband’s employer their Rule 12(b) motions.
Plain and simple, because of her actual bias, Judge Honeywell wanted to kill
this suit and all her rulings were consistent with that of a tainted and biased judicial
intent.
Petitioner raised these issues on appeal to the Eleventh Circuit Court of
Appeals but it was overlooked. A pro se civil appeal is at the bottom of the pile for
judicial consideration as they are handled by staff attorneys. The way the
unpublished opinion is written and the writing style of the opinion gives this away.
See Attached Unpublished Opinion. The glaring fact that not a single pro se litigant
has been granted oral argument in the past 20-year history of oral argument calendar
by the Eleventh Circuit Court of Appeals also speaks volumes as to what kind of
attention pro se civil appeals are afforded by the Eleventh Circuit.
STATEMENT OF THE CASE
1. In 2011, Petitioner minding her own business and practicing cosmetic surgery
in South Tampa, Florida, was falsely arrest and maliciously prosecuted by
Tampa Police Department and the local state prosecuting agency.
4

l

2. It was soon discovered that the arrest was initiated by the brother-in-law of
Petitioner’s fiance who was a police officer with the Tampa Police Department.
The brother-in-law was in a cat-n-dog fight with Petitioner’s fiance over
financial matters. Having run out of options in civil proceedings to regain what
he believed was due to the brother-in-law, brother-in-law abused his authority
as police officer by participating in fabricated probable cause and fraudulent
search warrant in order to have Petitioner and her fiance arrested at their
resident on June 9, 2011.
3. From 2011 through 2014, there was contentious criminal prosecution.
Petitioner mounted a rigorous defense to demonstrate that this was all about
a disgruntled family member abusing his authority as a police officer.
4. In 2014, the state appellate court discharged the frivolous prosecution making
Petitioner as the prevailing party for two false arrests and the one malicious
prosecution.
5. In 2015, Petitioner filed her civil suit alleging violations of her civil rights
under federal and state law.
6. The case was assigned to President Obama appointed Judge Charlene
Honeywell.
7. Within one month of filing the civil suit, Petitioner filed her motion to recuse
Judge Honeywell based on information that she had a family member who was
affiliated with the local arresting agency. Petitioner’s motion was denied by
Judge Honeywell who stated that she did not “currently have any family
5

members” employed by Tampa Police Department. No other factual
information was provided in the denial of the recusal motion.
8. Three years went by

with rulings thwarting discovery and preventing

Petitioner from being able to take the deposition of the district court judge’s
husband.
9. In 2016, all Respondents moved to dismiss pursuant to Rule 12(b).
10. In March 2017, report and recommendation was filed by magistrate judge to
grant all of the law enforcement respondents their Rule 12(b) motions.
11. Immediately following the report and recommendation, but before the final
decision by district court judge, all pretrial conference and trial dates were
vacated sua sponte by order of the court.
12. Within two weeks, the report and recommendation was approved in its entirety
by Judge Honeywell. The decision relied on a pending criminal case that was
outside of the four corners of the complaint.
13. During the same time, in March and April 2017, Petitioner filed successive
motions to disqualify the district court judge. One of these recusal motions was
following the submission of the Assignment Schedule for Gerald Honeywell
filed by Counsel for Tampa Police Department. This Assignment Schedule
unequivocally confirmed that Lieutenant Honeywell was the supervising police
officer over Petitioner’s criminal investigation in 2011- the very same criminal
investigation for which Petitioner had filed instant suit after becoming the

6

prevailing party when the subsequent criminal prosecution was discharged by
state appellate court.
14. All recusal motions were denied and Petitioner appealed.
15. On February 17, 2021, the Eleventh Circuit Court of Appeals affirmed the
decision of the district court after consolidating this case with another district
court case that had been removed to district court from state court, Paylan v.
Dirks.
REASONS FOR GRANTING THE PETITION
I.

STANDARD FOR JUDICIAL RECUSAL NEEDS A SECOND
LOOK
Accountability in the judicial system is an increasing public concern.

Vaguely defined recusal criteria has contributed to this public concern. The average
American is already appalled at the fact that a judicial officer cannot ever be sued for
mistakes born out of negligence or ill-will during the scope of their judicial conduct.
In the current state of affairs where judicial officers have such absolute immunity,
the criteria for recusal should be tightly and clearly defined, not loosely left to be
decided on a case-by-case basis with judicial discretion by the person who is the target
of a recusal motion.
Barriers are needed where rules are established that no judge can
preside over a case where a family member, current or former, has taken an adverse
position against a party. This seems commonsense but clearly it is not because based
on the loosely defined recusal criteria, Judge Honeywell was able to wiggle out of
recusing herself. Her reasoning for denying the recusal motions was either that she
7

was divorced from her supervising police officer husband who investigated Petitioner
or that at the time of the suit, the husband was no longer working for the arresting
agency. Commonsense tells us that the relevant time would not the time of the
lawsuit but the time when the criminal investigation was initiated under the district
court judge’s husband’s supervision.
The sheer fact that the current standards do not require factual
disclosures injudicial recusals leaving the public in the dark is sufficient grounds for
a second look at these standards. Most of the information regarding judicial officers
are sealed in court records pursuant to public records exemptions in most states. As
such, without a mandatory disclosure by the district court judge, there is no way for
the average citizen to know what the facts are. For instant, when did Judge
Honeywell divorce her husband? What was the relationship with her husband at the
time of Petitioner’s criminal investigation? And if she is divorced from her husband,
what is her current financial relationship with her husband such that what kind of
an impact an adverse decision in against her husband’s current or former employer
in Petitioner’s lawsuit may have the judge and her husband adversely?
All of these questions remain unanswered about the district court judge
while Petitioner, as a cosmetic surgeon, now has to live with the effect of not being
able to pursue any redress for her false arrests and malicious prosecution.
Because judicial recusal touches on such a central nerve as fundamental
due process under the Fourteenth Amendment, if one district court judge can defend
the indefensible of presiding in a case where a party was criminally investigated by
8

the district court judge’s own husband, then there is unequivocal need for revisiting
the standards for judicial recusal.
II.

JUDICIAL RULINGS THAT DEPART SO FAR FROM THE
NORM MUST BE VIEWED AS STEMMING FROM BIAS
Relying on facts that are outside the four corners of an operative

complaint is the hallmark of what not to do when ruling on a Rule 12(b) motion. Not
accepting as true the allegations made in the complaint is another on the checklist
for “don’ts” in ruling on a motion to dismiss. See Erickson v. Pardus, 551 U.S. 89,
127 S. Ct. 2197, 167 L. Ed. 2d 1081 (2007).
However, Judge Honeywell did just that. This departure from the
norm along with the contextual circumstance that her husband was the supervising
police officer in charge of Petitioner’s criminal investigation, Judge Honeywell’s
ruling in 12(b) motions in favor of all those related to her husband or his employer,
does not look or smell good at all.
Lack of judicial accountability is one of the most leading factors for the
average American to lose confidence in the legal system. The average American
knows that decisions made by a doctor, an accountant or a plumber are all subject to
suit if such decisions negligently result in damages for the individual. That is not the
case when it comes to judicial decisions. This is ever more the reason why criteria for
judicial recusal should be revisited by this Court. A uniform standard should be
constructed abandoning the current loosely defined criteria of case-by-case analysis.
Rules should be set out to assure the public that judicial recusal is mandatory without

9

any ifs or buts, in cases where there is a familial involvement relating to the district
court judge.
CONCLUSION
For all the foregoing reasons, this petition should be granted.

CHRISTINA PAYLAN, M.D.
P.O. BOX 66442
St. Pete Beach, Florida 33736
Office: 813-919-6299
Email: drpaylan@bodytuck.com

10

